No. 19-1186
IN THE

In the Supreme Court of the United States
JOSHUA BAKER, DIRECTOR, SOUTH CAROLINA
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Petitioner,
v.
PLANNED PARENTHOOD SOUTH ATLANTIC, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Alice Clapman, counsel for Respondents and a member of the Bar of this
Court, certify pursuant to Rule 33.1(h) of the Rules of this Court that this Brief in
Opposition contains 6,944 words, excluding the parts of the brief that are exempted
by Rule 33.1(d).

/s/ Alice Clapman
Alice Clapman

